No. _____________
In The Supreme Court of the United States

Kemen Lavatos Taylor, II, Petitioner
v.
Governor Mark Dayton and Tom Roy, Commissioner of Corrections, Respondents.

PROOF OF SERVICE

I, Zachary A. Longsdorf, being first duly sworn, do swear or declare that on
this date, February 3, 2021, as required by Supreme Court Rule 29, I have served
the enclosed Motion for Leave to Proceed in Forma Pauperis and Petition For A
Writ of Certiorari on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jean Burdorf
Hennepin County Attorney’s Office
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 3, 2021
s/ Zachary A. Longsdorf
_________________________________
Zachary A. Longsdorf

